TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                             Future Improvements Could
                           Further Increase the Benefits of
                           the Tuition Assistance Program



                                           April 24, 2012

                              Reference Number: 2012-10-043




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


FUTURE IMPROVEMENTS COULD                            established guidelines. However, controls did
FURTHER INCREASE THE BENEFITS OF                     not always work or were not sufficient. As a
THE TUITION ASSISTANCE PROGRAM                       result, TIGTA determined that Program officials
                                                     did not always: 1) reject requests for
                                                     non-qualifying courses, 2) ensure vendors met a
Highlights                                           minimum standard of quality, 3) ensure that
                                                     courses were successfully completed, and
Final Report issued on April 24, 2012                4) enforce continuing service agreements to
                                                     ensure that employees who leave Government
                                                     service shortly after receiving training pay back
Highlights of Reference Number: 2012-10-043
                                                     the training funds.
to the Internal Revenue Service Human Capital
Officer.                                             In November 2011, the IRS made a decision to
                                                     eliminate Program funding for Fiscal Year 2012
IMPACT ON TAXPAYERS                                  due to budgetary reductions. However, the IRS
The IRS, like many Federal agencies, uses            left open the possibility of bringing the Program
tuition assistance as a long-term recruitment and    back in future fiscal years. The elimination of
retention tool and as a means to improve             Program funding provides the IRS with an
employee and organizational performance. The         opportunity to consider strengthening
IRS established some monitoring tools to             accountability over Program funds in the event it
measure the impact of the Tuition Assistance         decides to resume operations of this or a similar
Program (hereafter referred to as the Program)       program in the future. Improvements would
and determined the Program benefitted both           provide the IRS with better insight into whether
individual employees and the IRS. However, the       its future program is achieving the results it
IRS did not clearly define Program goals, and        desires and would assure the IRS and the public
guidelines did not always work or were not           that money being used to invest in employee
sufficient. As a result, the IRS did not always      development is a good use of taxpayer funds.
ensure that taxpayer funds were used wisely.
                                                     WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA recommended that, in the event the IRS
This audit addresses the major management            decides to fund a future tuition assistance
challenge of Human Capital. The overall              program, the IRS establish goals and
objective was to determine if the IRS Human          cost-effective measures, ensure courses relate
Capital Office was evaluating whether Program        to a participant’s existing job duties or career
goals were being met and selected guidelines         goals, ensure courses be taken only from
were being followed.                                 vendors meeting a minimum standard of quality,
                                                     ensure courses are successfully completed, and
WHAT TIGTA FOUND                                     enforce continuing service agreements.
The IRS evaluated the impact of the Program          The IRS agreed with the recommendation and
and concluded that participants (as compared to      plans to document process improvements,
the general IRS population) showed lower             achievements results, lessons learned resulting
attrition, more promotions, higher performance       from an August 2011 meeting with the National
ratings, and higher employee engagement              Treasury Employees Union, and the
scores. However, the IRS never clearly defined       recommendation from this report on the Human
the goals of the Program and, consequently,          Capital Office Knowledge Management website.
never clearly defined measures that would assist
the IRS in assessing whether the Program was
meeting its goals.
The IRS generally approved courses only when
participants were eligible to participate and when
the courses requested were within the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 24, 2012


 MEMORANDUM FOR INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Future Improvements Could Further Increase the
                             Benefits of the Tuition Assistance Program (Audit # 201110024)

 This report presents the results of our review to determine if the Internal Revenue Service
 Human Capital Office was evaluating whether Tuition Assistance Program goals were being met
 and selected guidelines were being followed. This review is included in our Fiscal Year 2012
 Annual Audit Plan and addresses the major management challenge of Human Capital.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                                     Future Improvements Could Further Increase
                                    the Benefits of the Tuition Assistance Program




                                            Table of Contents

Background ......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          While the Program Benefitted the Agency and
          Its Employees, Program Controls Did Not Always
          Ensure Funds Were Spent Wisely................................................................. Page 4
                    Recommendation 1:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measures............................................................... Page 17
          Appendix V – Non-Qualifying Course Guidelines ....................................... Page 19
          Appendix VI – Management’s Response to the Draft Report ...................... Page 21
       Future Improvements Could Further Increase
      the Benefits of the Tuition Assistance Program




              Abbreviations

FY      Fiscal Year
IRS     Internal Revenue Service
                                 Future Improvements Could Further Increase
                                the Benefits of the Tuition Assistance Program




                                              Background

The Internal Revenue Service (IRS), like many Federal agencies, uses tuition assistance as a
long-term recruitment and retention tool and as a means to improve employee and organizational
performance. As experienced IRS employees leave or retire from the Federal Government,
successful recruitment and retention is critical to ensure that future employees have the skills and
knowledge needed to provide America’s taxpayers with top quality service.
From Fiscal Years (FY) 2000 through 2007, the IRS
operated a program known as the Human Resource                            The IRS uses tuition assistance
Investment Fund to promote career development,                              to improve employee and
increase the internal pool of candidates for the                           organizational performance.
IRS’s mission-critical occupations,1 and improve the
skills of its employees. We audited2 the IRS’s
administration of this Fund and determined it was not a
cost-effective method to distribute tuition assistance
because administration costs exceeded the amount paid
for tuition. In FY 2008, the IRS conceived the Tuition
Assistance Program (hereafter referred to as the
Program) as an alternative method for providing tuition
assistance.
The IRS believes that the Program is a more flexible form of financial assistance than its
predecessor. In addition, the Program was designed to make it easier and more accessible to
IRS employees interested in self-improvement. Its mission is to fund IRS employee education in
mission-critical training and to help prepare employees for career and advancement
opportunities.
In the Program’s first year of operation, FY 2008, employees could apply for two courses per
open season,3 with no limit on the cost of courses.4 In Program Year5 2011, course funding was
limited to $2,000 per course, including a $50 maximum on books. Additionally, employees were
restricted to receiving only $4,000 per program year.

1
  Mission-critical occupations are those positions critical to front-line enforcement and direct support to front-line
operations needed to meet the stated IRS goals.
2
  Treasury Inspector General for Tax Administration, Ref. No. 2005-10-070, The Human Resources Investment
Fund Is Not a Cost-Effective Method of Providing Tuition Assistance (Mar. 2005).
3
  There are two open seasons for each fiscal year.
4
  There is a $5,250 maximum for income reporting purposes on tax-free tuition assistance.
5
  A Program Year is based on a traditional college semester schedule. The first open season is for classes beginning
after January 1 through May 31. The second open season is for classes beginning June 1 through October 31.
                                                                                                              Page 1
                                Future Improvements Could Further Increase
                               the Benefits of the Tuition Assistance Program



Figure 1 provides key statistics on the number of participants and the amount the IRS has paid
for tuition assistance over the past four fiscal years.
     Figure 1: Number of Participants and Amount Spent on Tuition Assistance by
                                     Fiscal Year

                  FY                    2008                2009                 2010                2011
    Number of Participants              5,441               6,102                6,060               5,313
    Amount Paid                      $7,630,861         $10,387,355          $9,964,975           $7,021,798
Source: IRS Human Capital Office Finance Management Office. We did not validate the number of participants or
amount spent on tuition assistance.

To administer the Program, the IRS developed certain criteria that should be met before an
employee can be eligible for tuition assistance,6 as well as criteria for acceptable courses. For
example, Program applications are prepared by employees and sent to the IRS Human Capital
Office where they are reviewed to ensure that employees are eligible to participate in the
Program and that requested courses meet Program criteria. Once a course is approved,
participants can either pay for the course themselves and submit receipts to the IRS for
reimbursement or have the IRS pay the vendor directly. Once a course is completed, the
employee is required to send grade documentation to the IRS Human Capital Office to support
the successful completion of the course.
In November 2011, the IRS made a decision to eliminate Program funding for FY 2012 due to
budgetary reductions and a need to reduce expenses for programs that it determined not to be
mission critical. However, the IRS left open the possibility of bringing the Program back in
future fiscal years.
During our review, we raised issues and the IRS Human Capital Office took actions to address
them. Actions taken by IRS management are noted throughout this report as Management
Actions. In addition, this audit was conducted while the Program was implementing
improvements designed to strengthen controls during Fiscal Year 2011. Our audit primarily
evaluated Fiscal Year 2010 data because complete Fiscal Year 2011 data were not available
when we started our review. As a result, this report may not reflect the most current status of the
Program prior to the IRS’s decision to eliminate Program funding.
This review was performed at the IRS Human Capital Office, Leadership, Education, and
Delivery Services, Centralized Delivery Services function in Washington, D.C.; and the Tuition

6
 The FY 2010 criteria for acceptance into the Program were that the employee applying for acceptance into the
Program: 1) could not be in debt to the IRS, 2) must have been an employee for one full year, and 3) must have had
his or her performance rated as at least “fully successful” on his or her most recent performance appraisal. From
FY 2010 to FY 2011, the Program also required employees applying for acceptance into the Program to be a
permanent or seasonal employee and not on an intermittent work schedule.
                                                                                                          Page 2
                           Future Improvements Could Further Increase
                          the Benefits of the Tuition Assistance Program



Assistance Program Branch in Austin, Texas, during the period August through December 2011.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                         Page 3
                              Future Improvements Could Further Increase
                             the Benefits of the Tuition Assistance Program




                                   Results of Review

The IRS determined the Program benefitted both individual employees and the IRS for the
period October 1, 2007, through April 24, 2010, in several ways. Participants (as compared to
the general IRS population) showed lower attrition,7 more promotions, higher performance
ratings, and higher employee engagement scores.8 However, the IRS never clearly defined the
goals of the Program and, consequently, never clearly defined measures that would assist the IRS
in assessing whether the Program was meeting its goals.
The IRS established some of the guidelines and controls necessary to successfully administer the
Program. For example, the IRS generally approved courses only when participants were eligible
to participate and when the courses requested were within the established guidelines. However,
controls did not always work or were not sufficient. As a result, we determined that Program
officials did not always: 1) reject requests for non-qualifying courses, 2) ensure vendors met a
minimum standard of quality, 3) ensure that courses were successfully completed, and 4) enforce
continuing service agreements to ensure that employees who leave Government service shortly
after receiving training pay back the training funds.
The elimination of Program funding in FY 2012 provides the IRS with an opportunity to
consider strengthening accountability over Program funds in the event it decides to resume
operations of this or a similar program in the future. Improvements would provide the IRS with
better insight into whether its future program is achieving the results it desires and would assure
the IRS and the public that money being used to invest in employee development is a good use of
taxpayer funds.

While the Program Benefitted the Agency and Its Employees, Program
Controls Did Not Always Ensure Funds Were Spent Wisely
The Program has provided benefits to the agency and has been very popular with employees;
however, we believe the IRS’s accountability over Program funds could benefit from
improvements in two important areas:
    1. Establishing goals that clearly define the objectives of the Program and aligning measures
       in a manner that will assist in evaluating whether the goals are being achieved.




7
 Attrition refers to the loss of employees to retirement or resignation.
8
 Employee engagement scores measure the degree of employee motivation, commitment, and involvement in the
mission of the organization.
                                                                                                    Page 4
                                 Future Improvements Could Further Increase
                                the Benefits of the Tuition Assistance Program



    2. Developing controls so taxpayer dollars are spent in a manner that provides better
       assurance that the IRS, in addition to participants, benefits from tuition assistance. This
       will achieve the highest return on the IRS’s investment.

Tuition Assistance Program goals were not clearly defined and measures were
not aligned
Government agencies should have goals in place to ensure that programs are meeting their
objectives. Without clear goals, it is not possible to objectively measure whether a program is
operating effectively or efficiently. Further, establishing goals provides a clear understanding of
what a program is striving to accomplish and provides a means for establishing methods that will
measure progress toward meeting a program’s
objectives.
The IRS did not clearly define the goals of the Program                       Both the agency and its
                                                                          participants benefitted from the
or sufficiently evaluate whether it was accomplishing its                  Program, but goals were not
mission. For example, when we requested the goals of                      clearly defined and, as a result,
the Program, the IRS could not locate a specific                            measures were not aligned.
document that contained the goals and instead provided
an e-mail with goals9 that it thought the Program would
accomplish. The goals were later revised when we
requested the data used to measure whether Program
goals were being achieved. Program goals were not
clearly defined because IRS management was unsure of
where to document them.
Despite not having clearly documented goals, Program
officials assessed the value of the Program in two ways.
In FY 2010, the IRS Human Capital Office assembled a team to evaluate specific areas of the
Program. The team conducted a one-time analysis using data from October 1, 2007, through
April 24, 2010. It compared participants to the general IRS population and found that
participants achieved higher performance ratings and higher rates of promotions, while being
less likely to leave the IRS.
Also in FY 2011, the Program developed a Customer Satisfaction Survey as an ongoing measure
for Program evaluation. This participant survey is filled out upon course completion to
determine whether participants believed that courses aided the participant in preparing for career
growth and opportunities, developing new skills, improving job performance, or improving their



9
 Goals of the Program were as follows: 1) promote career development, 2) increase the internal pool of candidates
for the IRS’s mission-critical occupations, 3) improve the performance/skills of employees at their current position,
4) retain employees; and 5) increase recruitment opportunities.
                                                                                                              Page 5
                           Future Improvements Could Further Increase
                          the Benefits of the Tuition Assistance Program



ability to receive a promotion. The Customer Satisfaction Survey results indicated, and the team
concluded, the Program had a positive impact on the IRS and its participants.
As helpful as these assessments were, we could not determine if the Program was achieving the
IRS’s intent for the Program. The lack of clearly defined Program goals, as well as measures
that specifically evaluate whether goals are being achieved, did not allow for sufficient
evaluation of the Program.
Management Actions: During our audit, IRS Human Capital Office officials redefined the goals
of the Program as follows: the Tuition Assistance Program has been established to assist in
preparing employees for career growth and opportunity, by providing course tuition assistance in
developing current and new skills to improve job performance, resulting in increased employee
engagement.

Processes did not provide sufficient assurance that participants and the IRS
reaped the benefits of its investment in the Program
The IRS established some of the guidelines and controls necessary to successfully administer the
Program. For example, the IRS generally approved courses only when the Program participant
was eligible to participate and most of the approved courses were within the guidelines
established by the Program. However, controls did not always protect the IRS’s investment in
participants and did not sufficiently ensure that participants received a high-quality classroom
experience. Specifically, we found Program officials did not always:
      Reject requests for non-qualifying courses.
      Ensure vendors met a minimum standard for quality.
      Ensure that courses the IRS paid for were successfully completed.
      Enforce continuing service agreements to ensure employees who leave Government
       service shortly after receiving training pay back the training funds.
Program officials did not reject requests for non-qualifying courses
Program guidelines state that courses must fall into one of six course categories and must support
a mission-related field of study that provides skills and knowledge pertaining to a career goal
within the IRS. Requested courses should be denied if the course is not relevant to the
participant’s existing position or a desired career position.




                                                                                           Page 6
                                Future Improvements Could Further Increase
                               the Benefits of the Tuition Assistance Program



However, the Program did not identify all
non-qualifying courses through its process of having            While relatively few in number,
Program officials approve requested courses. We                    the IRS sometimes spent
conducted an analysis of the courses Program officials         taxpayer funds on courses with
approved in FY 2010 and determined 71 (1 percent) of            no clear link to an employee’s
                                                                  current job or career path.
7,077 courses either did not qualify or should not have
qualified for the Program.10 For each of these
71 courses, the requested course either had no clear link
to the participant’s current position or their career path
or simply did not qualify because the course topic was
prohibited from the Program altogether.11 For example,
we identified participants who were approved to take
courses in basic Japanese and Mandarin, which are
considered uncommon languages, and should not be
approved and funded without a job-related
justification,12 and other participants who were approved to take real estate courses.
Figure 2 shows courses approved by Program officials that did not qualify for Program funds in
FY 2010.
                    Figure 2: FY 2010 Potentially Non-Qualifying Courses
                                  Approved by the Program

                                                                                     Number
                                                                                        of             Total
                                                                                      Courses         Course
                    Potentially Non-Qualifying Courses                               Approved         Cost
     Humanities/Social Science/Liberal Arts Courses                                       23         $28,917
     Personal Finance Courses                                                             15          11,423
     Graphic Design or Unrelated Information Technology Courses13                         14          15,623
     Real Estate Courses                                                                   8           4,446
     Uncommon Language Courses                                                             6           2,172
     Miscellaneous Courses                                                                 2           3,938


10
   See Appendix IV for details.
11
   Humanities, Social Science, and Liberal Arts courses do not qualify for the Program, and thus should not be
funded. See Appendix V for Program guidelines on non-qualifying courses.
12
   The IRS was unable to produce job-related justifications for FY 2010 because they were not tracked for that year.
13
   This includes courses taken on software not supported by the IRS.
                                                                                                            Page 7
                             Future Improvements Could Further Increase
                            the Benefits of the Tuition Assistance Program




                                                                          Number
                                                                             of            Total
                                                                           Courses        Course
                  Potentially Non-Qualifying Courses                      Approved        Cost
        Miscellaneous Courses                                                   2          3,938
        Natural/Physical Science Course                                         1          1,111
        Health Science Course                                                   1           527
        Incomplete Course Name on the Program Application                      1            895
        Total Non-Qualifying Courses and Cost                                  71         $69,052
      Source: Treasury Inspector General for Tax Administration analysis of the Program database.

We believe this occurred because employees selected courses that did not qualify for the
Program and the process to identify non-qualifying courses is manual and subject to human
error. In addition, Program officials work in the IRS Human Capital Office, and in most
instances, have limited knowledge of a participant’s existing position and career goals. Also,
Program officials have minimal contact with the participants and the participants’ managers, and
their determinations are based on the Program application and course description. According to
Program officials, the Program was designed this way to reduce burden on frontline managers.
While we understand this concern, frontline managers are in the best position to have knowledge
of the participant’s existing position and career goals to determine if the course qualifies for the
Program.
Management Actions: Program officials made improvements to the Program database in
FY 2011 that were designed to correct the issue of being unable to determine the courses that had
a job-related justification submitted. If a participant’s application was denied by a Program
official, the participant could appeal the decision and submit a job-related justification to explain
why the participant qualifies for the course. The decision would then be based on a job-related
justification and the database is designed to track these decisions.
Program officials did not ensure vendors met a minimum standard for quality
Program guidelines did not include controls for ensuring vendors meet a minimum standard of
quality. Sound management practices dictate that controls should be in place to ensure funds are
spent only on quality courses. Quality course offerings benefit the participant, as well as the
IRS.




                                                                                                    Page 8
                                 Future Improvements Could Further Increase
                                the Benefits of the Tuition Assistance Program



Because no standard of quality was in place, we used the
                                                                                   More than $700,000 in tuition
Department of Education’s list of accredited institutions as                         payments were made to
one standard to analyze vendor payments.14 For vendor                              non-accredited institutions.
payments from October 1, 2009, through September 23, 2011,
we determined that 188 (20 percent) of 921 unique vendors
were not included on the list of accredited vendors.15
Payments to these vendors accounted for $733,762 in tuition
payments.
Because the Program was not developed to be a
degree-assistance program, the IRS decided to fund
non-accredited vendors. In addition, Program officials
determined that some specialized courses, in areas such as
Information Technology, may be best offered by proprietary
institutions. While non-accredited vendors may provide high-quality courses, the IRS has no
assurance that participants are receiving a high-quality education without accreditation or some
other form of quality control.
Program officials did not always ensure that courses the IRS paid for were successfully
completed
Requiring participants to provide evidence that proves the successful completion of coursework
increases assurances that the IRS and participants receive the intended benefits from the
IRS’s investment in the Program. Program guidelines require that participants submit grades
received from courses within 30 days of completing a course or they are required to repay the
IRS. However, the guidelines do not adequately specify what kind of documentation is required
so participants may not know what documentation to submit. We believe acceptable grade
documentation should include information that identifies the student, vendor, course title, and
course grade in order to provide reasonable assurance that coursework is successfully completed.
If courses are not successfully completed, the Program participant must reimburse the IRS for
the amount it paid for the course.
We selected a judgmental sample16 of course applications from FY 2010 and determined that the
grade documentation for 75 (37.5 percent) of 200 course applications was not adequate and/or
was not timely submitted upon completion of the course.17 Figure 3 details some of the concerns
we identified.


14
   While we used the Department of Education’s list of accredited institutions to analyze the quality of vendors, this
is not the only standard that could be used to judge quality.
15
   Department of Education, Database of Accredited Institutions and Programs is publicly available on the
Department of Education’s website.
16
   A judgmental sample is a non-statistical sample, the results of which cannot be used to project to the population.
17
   See Appendix IV for details.
                                                                                                               Page 9
                                Future Improvements Could Further Increase
                               the Benefits of the Tuition Assistance Program



                   Figure 3: Inadequate Grade Documentation (FY 2010)

                                                                                          Number
                        Description of Why Grade Submissions                                 of
                                  Were Not Adequate                                      Instances18
            Grade documentation not timely submitted.19                                       4920
            Vendor not listed on grade documentation.                                         13
            Course listed on grade documentation did not match course in
                                                                                              11
            Program database record.
            Participant name not printed on grade documentation or
                                                                                              10
            otherwise did not show the grade was for the participant.
            Grade listed on grade documentation did not match Program
                                                                                               6
            database grade record.
            Vendor listed on grade documentation did not match Program
                                                                                               1
            database grade record.
           Source: Treasury Inspector General for Tax Administration analysis of FY 2010 grade
           documentation provided by the IRS.

The lack of a sufficient standard to demonstrate the successful completion of course work may
result in the IRS paying for courses that were not successfully completed. For example, the IRS
spent approximately $37,000 on 32 of the courses in Figure 3, but did not receive documentation
that could conclusively prove that an employee successfully completed the course. Program
officials stated that they did not provide specific guidance regarding the information that should
be provided by participants because of inconsistencies that exist between the grade
documentation that is available from different vendors. While this presents a challenge, we
believe the IRS should more clearly define its standards of documentation for all grade
documentation.
Management Actions: During our audit, Program officials changed processes and procedures
that are designed to strengthen controls associated with the timeliness of grade submissions.
Under this new process, the database record is used to initiate requests for grades, which are sent
to participants. If the IRS does not receive the grade timely, the participant is required to
reimburse Program funds back to the IRS.



18
   The grade documentation for 75 course applications was not adequate and/or timely. Because some grade
documentation was inadequate for multiple reasons, this column will not total to 75.
19
   In the 49 cases, documentation was received from 48 to 572 days after courses were completed.
20
   In 28 (57 percent) of 49 instances, the IRS Human Capital Office was unable to locate the grade documentation.
                                                                                                          Page 10
                                 Future Improvements Could Further Increase
                                the Benefits of the Tuition Assistance Program



Program officials did not enforce continuing service agreements to ensure that employees
who leave Government service shortly after receiving training pay back the training funds
Continuing service agreements provide assurance that the IRS will recover the cost of its
investment in the Program if a participant leaves shortly after completing a course. The IRS
recognized the need to protect its investment in its Program by including a provision in a Letter
of Understanding with the National Treasury Employees Union, as well as its Program
guidelines, which both provide for reimbursement to the IRS if a participant leaves the
Government before an agreed upon amount of time working for the IRS.21
While the IRS had guidelines in place, it decided not to require continuing service agreements
from participants because the IRS believed continuing service agreements should be enforced
only if a Program participant was taking a course during work hours. We believe that because
the IRS is funding these courses, it needs to enforce continuing service agreements regardless of
whether the course is taken during work hours.
Our analysis of employee records for FY 2010 participants found 103 (2.6 percent) of
3,909 participants had left the IRS after receiving tuition assistance benefits.22 These participants
received $212,004 in tuition assistance funds and would have potentially been subject to a
continuing service agreement. While the employee records did not indicate the reason for the
103 participants leaving the IRS, the IRS did not adequately benefit from the employees’
participation in the Program and the costs from these participants cannot be recovered.




21
   IRS procedures state that an employee selected for a training course of more than 80 hours must sign an
Employee’s Agreement to Continue in Service prior to the training. The employee agrees to continue in service for a
period equal to at least three times the length of the training period or, if the employee voluntary leaves, the IRS has
the right to require repayment.
22
   Participants who left the IRS between December 31, 2009, and November 4, 2011.
                                                                                                              Page 11
                            Future Improvements Could Further Increase
                           the Benefits of the Tuition Assistance Program




Recommendation
Recommendation 1: In the event that the IRS decides to fund a tuition assistance program in
the future, we recommend the IRS Human Capital Officer:
      Better document goals that are consistent with
       the mission of the program and develop               The IRS can take several actions
       cost-effective measures to assess whether            to improve its tuition assistance
       goals are being achieved.                                 program in the future.

      Increase the involvement of the participant’s
       frontline management in a manner that will
       provide better assurance that courses are
       consistent with a participant’s existing job
       duties or career goals.
      Require that courses be taken only from
       vendors meeting a minimum standard of
       quality, e.g., institutions that are accredited by
       the Department of Education.
      Ensure that program guidelines require that participants submit proof of course
       completion documentation (including the participant’s name, vendor providing the
       course, title of the course, and grade or other indicator of successful completion) within a
       specified time period.
      Enforce continuing service agreements to protect the investment the IRS is making in its
       employees.
       Management’s Response: The IRS agreed with the recommendation. The IRS
       Human Capital Officer plans to document process improvements, achievements results,
       lessons learned resulting from an August 2011 meeting with the National Treasury
       Employees Union, and the recommendation from this report on the Human Capital Office
       Knowledge Management website.




                                                                                            Page 12
                                   Future Improvements Could Further Increase
                                  the Benefits of the Tuition Assistance Program



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the IRS Human Capital Office was
evaluating whether Tuition Assistance Program goals were being met and selected guidelines
were being followed. To accomplish this objective, we:
I.         Determined whether the IRS Human Capital Office had measures in place to evaluate
           whether Program goals were being met.
           A.     Determined whether Program goals were defined and documented.
           B.     Determined whether IRS analyses or other performance monitoring tools enabled
                  the IRS Human Capital Office to evaluate the Program on an ongoing basis.
II.        Determined whether the IRS Human Capital Office ensured entrance criteria were met,
           approved courses met mission-critical needs, courses were satisfactorily completed, and
           continuing service agreements were tracked.
           A.     Evaluated whether approved participants met the criteria for entering the Program
                  by selecting and reviewing a judgmental sample1 of 200 FY 2010 courses from a
                  population of 7,077 FY 2010 courses in the Program database.2 We did not use a
                  statistical sample because we did not plan to project the results.
           B.     Evaluated the quality of courses funded to determine whether courses were
                  consistent with mission-critical needs and/or prepared participants for career
                  development. We used the population of 7,077 FY 2010 courses in the Program
                  database and reviewed the participant’s business unit, job series, and official title,
                  and compared personnel information to the requested course. We then determined
                  whether the course fell into one of the six course categories and whether it
                  supported a mission-related field of study that provided skills and knowledge
                  pertaining to a career goal within the IRS, or was relevant to the participant’s
                  existing position/desired career position.
           C.     Reviewed the population of 921 vendors who received a payment from Program
                  funds between October 1, 2009, and September 23, 2011, to determine whether
                  institutions receiving payments were included on the list of accredited vendors
                  maintained by the Department of Education.


1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
2
    We relied on information from the IRS’s database and did not verify its accuracy.
                                                                                                               Page 13
                          Future Improvements Could Further Increase
                         the Benefits of the Tuition Assistance Program



       D.   Determined whether participants demonstrated successful completion of
            coursework and that grades were correctly recorded on the Program database by
            selecting and reviewing the sample obtained in Step II.A.
       E.   Determined whether the IRS was enforcing continuing service agreements and
            whether the IRS tracked participants with an agreement in FY 2010.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Letter of Understanding between the
IRS and National Treasury Employees Union, Program guidelines, and the Program database
designed to track Program participation. We evaluated these controls by interviewing
management, reviewing documentation, reviewing a judgmental sample of course applications to
determine whether they met the criteria for entrance into the Program and whether the correct
grade was recorded, and comparing the results of our own analysis of course approval to the
Program database.




                                                                                       Page 14
                         Future Improvements Could Further Increase
                        the Benefits of the Tuition Assistance Program



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Jeffrey R. Stieritz, Lead Auditor
Allen L. Brooks, Senior Auditor
Allison P. Meyer, Auditor




                                                                                  Page 15
                          Future Improvements Could Further Increase
                         the Benefits of the Tuition Assistance Program



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy IRS Human Capital Officer OS:HC
Director, Leadership, Education and Delivery Services Division, Human Capital Office
OS:HC:LE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: IRS Human Capital Officer OS:HC




                                                                                       Page 16
                                   Future Improvements Could Further Increase
                                  the Benefits of the Tuition Assistance Program



                                                                                                    Appendix IV

                                        Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
      Inefficient Use of Resources – Potential; $69,052 (see page 4).

Methodology Used to Measure the Reported Benefit:
Program guidelines state that courses must fall into one of six course categories and must support
a mission-related field of study that provides skills and knowledge pertaining to a career goal
within the IRS. Requested courses should be denied if the course is not relevant to the
participant’s existing position or a desired career position. We conducted an analysis of the
courses Program officials approved in FY 2010 and determined 71 (1 percent) of 7,077 courses
either did not qualify or should not have qualified for the Program. The cost of these 71 courses
was $69,052.

Type and Value of Outcome Measure:
      Inefficient Use of Resources – Potential; $36,837 (see page 4).

Methodology Used to Measure the Reported Benefit:
Program guidelines require that participants submit grades received from courses within 30 days
of completing a course or they will be required to repay the IRS. However, the guidelines do not
adequately specify what kind of documentation is required. We believe acceptable grade
documentation should include information that identifies the student, vendor, course title, and
course grade in order to provide reasonable assurance that coursework was successfully
completed. If courses are not successfully completed, the Program participant must reimburse
the IRS for the amount it paid for the course. We selected a judgmental sample1 of course
applications from FY 2010 and determined that the grade documentation for 75 (37.5 percent) of
200 course applications was not adequate and/or was not timely submitted upon completion of
the course.



1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 17
                               Future Improvements Could Further Increase
                              the Benefits of the Tuition Assistance Program



The grade documentation for 32 of the 75 course applications did not prove conclusively that the
employee completed the course. As a result, the IRS may have paid $36,837 for courses that
were not completed. Figure 1 provides a breakdown of the 32 course applications.
     Figure 1: The Cost of Courses for Which the IRS Received Inadequate Grade
                  Documentation of Successful Course Completion

                                                                              Amount Spent on Courses
    Description of Inadequate                Number of Course                  With Inadequate Grade
     Grade Documentation                       Applications                       Documentation
Course listed on grade
documentation did not match                            11                                 $18,961
course in Program database.
Participant name not printed
                                                       10                                  $9,206
on grade documentation.
Vendor not listed on grade
                                                       102                                 $7,880
documentation.
Vendor listed on grade
documentation did not match                            1                                    $790
Program database.
Totals                                                 32                                 $36,837
Source: Treasury Inspector General for Tax Administration analysis of grade documentation provided by the
IRS Human Capital Office.

Type and Value of Outcome Measure:
    Reliability of Information – Actual; six inaccurate records on the Program database
     (see page 4).

Methodology Used to Measure the Reported Benefit:
We analyzed a judgmental sample of 200 FY 2010 course applications from a population of
7,077 FY 2010 courses in the Program database. We reviewed the grade documentation
submitted by the participant to determine whether it matched records maintained on the Program
database. Our analysis identified six instances where the grade documentation submitted by
participants did not match database records.


2
 Some grade documentation was inadequate for multiple reasons. This chart will not reconcile with Figure 3 on
page 10 of the report body because we counted each exception only once.
                                                                                                        Page 18
                           Future Improvements Could Further Increase
                          the Benefits of the Tuition Assistance Program



                                                                                Appendix V

                 Non-Qualifying Course Guidelines

Program funds should be spent only for courses that provide participants with new skills or
improve participants’ existing skills and knowledge for their current job duties. Figure 1
provides examples of fields of study that do not qualify for reimbursements from the Program.
         Figure 1: Fields of Study That Do Not Qualify Under the Program

    Study Category                     Description
    Humanities/Social Science/            History
    Liberal Arts
                                          Art, Music
                                          Sociology
                                          Philosophy
                                          Psychology
                                          Political Science
                                          Education, Journalism
                                          Literature
                                          Anthropology
                                          Women’s/Ethnic Studies
    Health Science                        Nutrition/Dietetics
                                          Physical Education
                                          Recreation
                                          Social Work
                                          Hygiene
                                          Environmental Studies
                                          Health Care
                                          Physical Therapy



                                                                                        Page 19
                           Future Improvements Could Further Increase
                          the Benefits of the Tuition Assistance Program




 Study Category                     Description
 Natural/Physical Science              Biology
                                       Zoology
                                       Chemistry
                                       Physics
                                       Engineering
 Personal Finance                      Personal Finance
Source: IRS Program guidelines.




                                                                           Page 20
          Future Improvements Could Further Increase
         the Benefits of the Tuition Assistance Program



                                                Appendix VI

Management’s Response to the Draft Report




                                                          Page 21
 Future Improvements Could Further Increase
the Benefits of the Tuition Assistance Program




                                                 Page 22
